Case: 19-1106

Document: 72

Page: 1

Date Filed: 07/31/2020

-ft
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-1106

AMRO A. ELANSARI,
Appellant
v.
UNITED STATES OF AMERICA; COMMONWEALTH OF PENNSYLVANIA;
PENN STATE DICKINSON SCHOOL OF LAW; CENTRE COUNTY
COURTHOUSE; STATE COLLEGE POLICE DEPARTMENT; CENTRE
COUNTY CORRECTIONAL FACILITY-CENTRE COUNTY DISTRICT
ATTORNEY'S OFFICE; TOWN OF BLOOMSBURG; COLUMBIA COUNTY
DISTRICT ATTORNEY'S OFFICE; COLUMBIA COUNTY COURTHOUSE

On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. Civil Action No. 15-cv-01461)
District Judge: Honorable Malachy E. Mannion

Submitted Pursuant to Third Circuit LAR 34.1(a)
July 28, 2020
Before: SHWARTZ, RESTREPO and GREENBERG, Circuit Judges
(Opinion filed: July 30, 2020)

OPINION*
* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

Case: 19-1106

Document: 72

Page: 2

Date Filed: 07/31/2020

PER CURIAM
Pro se Appellant Amro Elansari appeals from the District Court’s dismissal of his
claims against a host of parties including the United States, various law enforcement
agencies of the Commonwealth of Pennsylvania, and the Pennsylvania State University
School of Law based on his belief that any prohibition against marijuana possession, use,
or distribution is intrinsically unconstitutional. We will affirm.
I.
We write primarily for the parties who are well-versed in the factual and
procedural details of this case; thus, we provide background only as necessary to resolve
this appeal.
In 2015, Elansari sued various federal and state government agencies, county
courthouses, county courts, and Penn State Law seeking, among other things, an
injunction against these parties from enforcing any laws regulating or prohibiting the
possession, use, or distribution of marijuana.1 At that time, Elansari also filed an
“Emergency Petition for Ex Parte Preliminary Injunction” to enjoin Defendants from

Elansari made other allegations unrelated to his central argument against marijuana
regulation including, for example, that the Columbia County District Attorney was liable
to him for legal malpractice because the District Attorney is Elansari’s personal attorney
and, therefore, when the District Attorney declined to prosecute Elansari’s unrelated
private criminal complaint, the District Attorney committed malpractice. He also alleged
that he was given an A- grade instead of an A grade in an unidentified course, then
wrongfully denied admission to Georgetown University Law Center.
2

Case: 19-1106

Document: 72

Page: 3

Date Filed: 07/31/2020

“Arresting/Incarcerating/Charging/Recreational/Safe Use of Marijuana and all schools
from discriminating against students for the same in the interest of due process and
liberty and justice for all.” The District Court denied Elansari’s petition, reasoning that
Elansari could neither establish a likelihood of success on the merits nor articulate an
imminent irreparable injury. Elansari appealed.
We summarily affirmed the District Court’s decision. We concluded that it
correctly ruled that Elansari could not show a likelihood of success on his claim that
limitation, regulation, or prohibition of marijuana possession, use, or distribution is
intrinsically unconstitutional given the well-established proposition that such regulation
is supported by a rational basis. Elansari v. United States. 615 F. App’x 760, 762 (3d Cir.
2015) (citing Gonzales v. Raich, 545 U.S. 1, 22 (2005) (rejecting a Commerce Clause
challenge to certain laws governing marijuana use and concluding that a rational basis
exists to support the laws)). We further affirmed the District Court’s denial of his
petition because Elansari failed to establish that any imminent irreparable injury would
result in the absence of an injunction. In so concluding, we rejected Elansari’s claim,
among others, that without an injunction, unidentified persons suffering from seizures of
unknown origin would be denied access to the “instant cure” of marijuana. Even if
Elansari established a likelihood of success on the merits and the existence of imminent
irreparable harm, we further concluded that the type of injunction demanded by Elansari
would not be in the public interest especially considering the extraordinary nature of
3

ft-*

Case: 19-1106

Document: 72

Page: 4

Date Filed: 07/31/2020

injunctive relief. See Winter v. Natural Res. Def. Council. Inc.. 555 U.S. 7, 24
(providing that a “preliminary injunction is an extraordinary remedy never awarded as of
right”).
Meanwhile, in the District Court, Defendants filed a series of motions to dismiss
Elansari’s complaint. Upon consideration of the thorough report and recommendation of
a Magistrate Judge, the District Court granted all Defendants’ motions dismissing
Elansari’s case with prejudice except for his due process claim against Penn State Law,
which the District Court permitted Elansari to replead in an amended complaint.2 After
Elansari filed his amended complaint, Penn State Law moved for summary judgment on
Elansari’s due process claim related to his suspension from the law school.3 Upon

2 As a matter of uncontested fact from the record below, Penn State Law suspended
Elansari for two years after finding, at an Honor Code hearing, that he failed to abide by a
school directive that he stop communicating with and contacting a particular female
classmate who had complained about his behavior toward her. After this hearing,
however, Elansari returned to the law school in violation of the terms of his suspension.
Penn State Law then filed a petition in state court to enjoin Elansari from further
disrupting Penn State Law’s academic instruction. The state court held a full hearing, at
which Elansari was present, and the court entered a permanent injunction against Elansari
prohibiting him from entering the law school. Elansari was later further restricted from
entering onto Penn State University’s campus as a result of his violation of the conditions
of his probation from a separate criminal conviction.
3 Elansari filed many other documents and motions with the District Court including
profanity-laden letters containing personal poems, notes about his pet cat, and accounts of
online disputes he had with viewers of his Facebook comments, purported amicus briefs
sharing his beliefs about unrelated Supreme Court cases, and a motion to join Facebook,
Inc. as a defendant in this case.
4

Case: 19-1106

Document: 72

Page: 5

Date Filed: 07/31/2020

consideration of another extensive and detailed report and recommendation, the District
Court granted summary judgment to Penn State Law. This appeal followed.
In support of his appeal, Elansari submitted a one-page brief proclaiming that “the
jig is up” and requesting that marijuana be “legalize[d] . . . right now” because “failure to
do so will constitute [] deprivation of rights under color of law . .. and will be reported to
the F.B.I.” Appellant’s Br. After we granted Appellees Centre County Court of
Common Pleas, Columbia County Courthouse, and State College Police Department’s
motions to be excused from filing responsive briefs, and after the United States delivered
a letter to this Court explaining that it will rest on the opinion and decision of the District
Court, Elansari filed a Motion to Supplement his initial one-page brief along with a copy
of his proposed supplemental brief.4 Because we grant Elansari’s Motion to Supplement,
we consider the arguments contained in his supplemental brief in tandem with the terse
arguments contained in his original brief.
II.
The District Court had jurisdiction under 28 U.S.C. § 1331. We have jurisdiction
under 28 U.S.C. § 1291.

4 Initially, Elansari filed a profanity-laden supplemental brief. Appellant’s Supp. Br. 2,
ECF No. 63 (including vulgar profanity directed at a state court judge and the judges of
the Centre County Court of Common Pleas). Later, he filed two “corrected”
supplemental briefs with less profanity.
5

Case: 19-1106

Document: 72

Page: 6

Date Filed: 07/31/2020

We review the grant of Penn State Law’s motion for summary judgment de novo.
Lehman Bros. Holdings. Inc, v. Gateway Funding Diversified Mortg. Servs.. L.P.. 785
F.3d 96, 100 (3d Cir. 2015). Summary judgment is appropriate where, viewing the
evidence in the light most favorable to the respondent, “no genuine dispute exists as to
any material fact, and the moving party is entitled to judgment as a matter of law.”
Montone v. Jersey City. 709 F.3d 181, 189 (3d Cir. 2013). We also review the grant of
all other Appellee’s motions to dismiss de novo. Newark Cab Ass’n v. City of Newark.
901 F.3d 146, 151 (3d Cir. 2018). “To survive a motion to dismiss, a complaint must
contain sufficient factual allegations, taken as true, to ‘state a claim to relief that is
plausible on its face.’” Fleisher v. Standard Ins.. 679 F.3d 116, 120 (3d Cir. 2012)
(quoting Bell Atl. Corn, v. Twomblv. 550 U.S. 544, 570 (2007)).
III.
Given the rigor and detail of the District Court’s and the Magistrate Judge’s
reasoning, and our own decision earlier in this case on Elansari’s Emergency Petition for
Ex Parte Preliminary Injunction, we need not spend undue time in our analysis now.
Indeed, it is no surprise, given our earlier conclusion on Elansari’s request for a
preliminary injunction—that he could not establish a likelihood of success on the
merits—that we now conclude that the District Court correctly decided that Elansari’s
claims fail on the merits.

6

tt-t

Case: 19-1106

Document: 72

Page: 7

Date Filed: 07/31/2020

Although Elansari covers a range of topics in his appellate brief and supplemental
brief—all while leveling ad hominem attacks on the District Court as well as threats to
report the District Court, this Court, and others to the F.B.I. for fraud—Elansari’s appeal
centers on two legal issues. First, Elansari argues that the District Court erred in deciding
that he cannot show that any limitation, regulation, or prohibition on the possession, use,
or distribution of marijuana is unconstitutional. Second, he argues that the District Court
erred in deciding that Penn State Law did not violate his due process rights when it
initially suspended him for two years and then again suspended him indefinitely. We
disagree for the reasons articulated by the District Court in its over one hundred pages of
well-reasoned and detailed analysis, but depart from the District Court’s analysis only
slightly in connection with Elansari’s substantive due process claim.
We begin with Elansari’s argument that any prohibition on the possession, use, or
distribution of marijuana violates the Equal Protection Clause.5 We agree with the
District Court that Elansari’s claim fails under a traditional theory of equal protection
because he has not shown that, as an individual who uses, possesses, or distributes

5 To prevail under a traditional equal protection theory, a plaintiff bears the burden of
showing that he is a member of a protected class and that the government treated
similarly situated persons outside the protected class differently. Keenan v. City of
Phila.. 983 F.2d 459, 465 (3d Cir. 1992).
To prevail under a class-of-one theory, a plaintiff bears the burden of showing that he
“was intentionally treated differently from others similarly situated . . . and that there is
no rational basis for the difference in treatment.” Phillips v. Ctv. of Allegheny. 515 F.3d
224, 244 (3d Cir. 2008).
7

Case: 19-1106

Document: 72

Page: 8

Date Filed: 07/31/2020

marijuana, he is a member of a protected class. We also agree with the District Court that
Elansari’s claim fails under a class-of-one theory as well because, despite ample
opportunity, he has never adduced evidence nor made a credible allegation that he was
irrationally and intentionally treated differently by Penn State Law, or any other
Appellee, from any similarly situated individual.
Next, we turn to Elansari’s argument that the District Court erred in concluding
that neither Penn State Law, nor any other Appellee, violated his procedural or
substantive due process rights when Penn State Law first suspended him for two years
and then suspended him indefinitely.
“To prevail on a procedural due process claim, a litigant must show (1) that the
state deprived him of a protected interest in life, liberty, or property and (2) that the
deprivation occurred without due process of law.” Bums v. Pa. Dep’t of Corr.. 544 F.3d
279, 285 (3d Cir. 2008) (citing Ky. Dep’t of Corr. v. Thompson. 490 U.S. 454, 460
(1989)).
Regarding Elansari’s initial two-year suspension, the District Court concluded that
he received appropriate procedural due process before his suspension. Indeed, the
District Court noted that Elansari admitted that he received notice of the Honor Code
hearing to review his alleged violation of a school directive to stop communicating and
contacting a female classmate. Elansari admitted that he attended the Honor Code
hearing, and that he actively participated in the hearing. Elansari failed to allege any
8

Case: 19-1106

Document: 72

Page: 9

Date Filed: 07/31/2020

cognizable deficiency in the process afforded to him before his suspension. Having
reviewed the record, we agree with the District Court that Elansari cannot establish a
procedural due process violation in connection with his initial two-year suspension from
the law school.
Similarly, we agree with the District Court that Elansari cannot establish a
procedural due process violation in connection with his indefinite suspension because he
has not alleged any cognizable deficiency in the process afforded to him before his
second suspension. Elansari’s indefinite suspension was imposed by way of the Centre
County Court of Common Pleas’ grant of Penn State Law’s petition for permanent
injunction against his presence in the law school. Elansari received notice of the hearing
and, indeed, he was an active participant at the hearing.
Finally, as for Elansari’s alternate theory that one or both of his suspensions
violated his substantive due process rights, we will affirm the District Court’s ruling, but
on different grounds.
To prevail on a substantive due process claim, a plaintiff must show that she was
deprived of a fundamental right through an arbitrary and deliberate abuse of authority.
Indep. Enter., Inc, v. Pittsburgh Water and Sewer Auth.. 103 F.3d 1165, 1179-80 (3d Cir.
1997).
The District Court concluded that Elansari could not prevail on a substantive due
process claim because continued enrollment in a graduate program is not a fundamental
9

Case: 19-1106

Document: 72

Page: 10

Date Filed: 07/31/2020

property right protected by substantive due process. We need not resolve that question
here because even if we assume that continued enrollment in a graduate program is a
fundamental property right, Penn State Law’s decision to suspend him was not “beyond
the pale of reasoned academic decision-making” or otherwise the result of an arbitrary
and deliberate abuse of authority. Regents of Univ. of Mich., v, Ewing. 474 U.S. 214,
228 (1985). Thus, Elansari’s substantive due process claim fails.

IV.
Accordingly, we will affirm the judgment of the District Court. Appellant’s
Motion to File a Supplemental Brief is granted and any other outstanding motions are
denied.

10

IN THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 19-1106
Amro Elansari,
Appellant
v.
U.S.A., et al.
Appellees

Appealfrom the United States District Courtfor the
Eastern District ofPennsylvania, Docket No. 2:19-CV-3609-MEM
From The Order Dated September 9, 2019

SUPPLEMENTAL BRIEF OF APPELLANT

Dated: June 3, 2019

Amro Elansari
Amro Elansari
Law Student - Pro Se
imroelansari@gmai1 .com
325 Penwyllt Court
Exton, PA 19341
Liberty And Justice For All

1

TABLE OF CONTENTS
Table ofAuthorities

2

I. STATEMENT OF JURISDICTION / STANDARD OF REVIEW

3

II. STATEMENT OF ISSUES PRESENTED FOR REVIEW

4

III. STATEMENT OF THE CASE

5

IV. SUMMARY OF ARGUMENT

10

V. ARGUMENT

11

VI. CONCLUSION

14

0*
2

TABLE OF AUTHORITIES
Cases:
Elansari v. U.S.A. No. 15-2843 (3d Cir. 2015)

5

Elansari v. Com. of Pennsylvania (3L18-CV-01123)

6,9

Harry v. Marchant, 237 F.3d 1315, 1317 (11th Cir. 2001).

3

Stump v. Sparkman 435 U.S. 349 (1978)

4, 9, 10, 12, 14

U.S. v. Ciavarella, No 18-1498 (3d Cir. 2018)

10

Statutes:
U.S. Const. Amnd. 14

6

18 U.S.C. § 242 - Deprivation of Rights Under Color of Law

6

28 U.S.C. §1331

3

28 U.S.C. § 1291

3

3

I. STATEMENT OF JURISDICTION AND STANDARD OF REVIEW
Subject matter jurisdiction is proper under 28 U.S.C. §1331 because this action involves
claims brought raising federal questions involving the 14th Amendment of the U.S. Constitution
as it applies to the constitutional rights of the Plaintiff to be free from fraud and the judicial
authority in this matter exceeding their jurisdiction as prescribed by law. Appellate jurisdiction is
proper under 28 U.S.C. § 1291 since this appeal is taken from a final order issues in the United
States District Court for the Eastern District of Pennsylvania.
Motion to dismiss complaint for failure to state a claim. Review is de novo. The court
accepts all allegations of the complaint as true and Construes the facts in the light most favorable
to the plaintiff. Harry v. Marchant. 237 F.3d 1315, 1317 (11th Cir. 2001).

4

1

II. QUESTIONS PRESENTED FOR REVIEW
1. Did the U.S. District Court prejudice the arguments of the Plaintiff with regards to the
constitutionality of cannabis given current and relevant facts as of 2016 onward in violation of
the Plaintiff s due process rights to have their arguments heard?
(Suggested Answer: Yes)
2. Is the prohibition of cannabis unconstitutional?
(Suggested Answer: For more than one reason, Yes)
3. Was the Plaintiff s suspension from Penn State Law wrongful as unequal treatment?
REVERSE AND REMAND for further proceedings.

5

III. STATEMENT OF THE CASE
Plaintiff recognizes the substantial inaccuracy with the representation of cannabis a
substance that is ‘dangerous’ and ‘without any accepted medicinal value’ simultaneously with
the substantial legalization of cannabis taking place throughout the U.S. at the time and the
Plaintiff s use of cannabis to mitigate pain and soreness associated with wrestling regularly to be
a violation of the constitutional rights of the people to be free from the deprivation of life /
liberty / and or property without the due process of law.
Plaintiff seeks to address this by raising awareness about the issue and challenge the
constitutionality of this prohibition given facts and science as they have emerged as recent as
2012 onwards towards 2016 and onwards towards even the present moment of 2020.
A series of events, including (1) the Plaintiffs purposeful smoking of a marijuana
cigarette at a Bloomsburg University Graduation Ceremony in 2014 in front of 2,000 people and
police officers - to take the misdemeanor paperwork arrest and summons to the court - to
challenge the constitutionality of the prohibition of cannabis - in its various ways - through the
Columbia County Court System in Bloomsburg, Pennsylvania.
Plaintiff graduated from Bloomsburg in 2013 and was studying at Penn State Law in
2013-2014 - when they returned to Bloomsburg to visit friends still in the area and then perform
the marijuana arrest protest / constitutionality challenge process. But in 2014-2015 when the
Plaintiff returned to Penn State Law for their second year, the Plaintiff was prejudiced by the
students at the school in various ways for their actions outside of the classroom that had no
impact or relevance to the school whatsoever.

6

(2) Plaintiff was purposefully, upon recognition of the medicinal need for cannabis and
the inability of most people to receive this - begins selling cannabis to people that come to them
asking for cannabis and unable to find from other sources (a) reasonably and (b) safely. Reports
of 17 year olds shot and killed in West Chester over 7 grams of marijuana ($100 worth) (Noah
Santiago - 2015 - signifies this). Plaintiff is arrested in the Penn State area for selling cannabis although when the Plaintiff began selling cannabis - they knew if they ever were arrested that
they would challenge the constitutionality of the prohibition as a defense and their honest intent
to justify a situation where people were in need of help would be the justification for their
actions which were in no way seriously harmful such as other aggravating offenses such as
robbery, assault, or even selling and trafficking Cocaine, PCP, Crack, Heroine, and other
seriously harmful substances that can take the live of a person in a very short time.
Surprising to the Plaintiff are his peers at the law school and in Bloomsburg who become
so intoxicated on alcohol that they vomit and splurge all over themselves in public and seeing
this as humour - and this is all legal and sold in alcohol distribution locations consistently all
throughout this experience between 2012-2018 - which really surprised the Plaintiff as to the true
intent and purpose of the law.
The Plaintiff saw the representation of cannabis as a dangerous substance simultaneously
while it is not - and legal in so many places - and simultaneously while alcohol and tobacco were
legal and taking the lives of as many as 400,000 Americans per year - to be false - fraudulent.
And fraud - the misrepresentation of truth - especially in the context of Court and the
legal system - would clearly be a violation of the due process of rights of the people.

B-7
7

And the representation of pot as a dangerous substance, while it is nothing like crack
cocaine or heroin, and simultaneously while alcohol and tobacco are legal - being fraudulent could in no way be in rational furtherance of any legitimate government interest. In fact - this
works against public safety.
Even more, than the prohibition of cannabis not being sufficient enough to pass rational
basis - there may be strict scrutiny rights with regards to the medical use of cannabis as well as it
has become so widely accepted in the most recent years - the legalization of cannabis by
Pennsylvania in 2016 and implementation of distribution locations in 2018 resulting in the 2020
pa medical cannabis program selling cannabis to Pennsylvanians who need it this very day - is
evidence of - and certainly this was among the points to consider in the matter as well.
Even more is the evidence that pot laws have indeed been disproportionately impacting
against minorities who face as high as a 3x likelihood of being arrested for pot despite same rates
of usage as non minorities according to the ACLU shows a disproportionate impact racially with
regards to the enforcement of the law And even more is the evidence showing that the pot laws came from a discriminatory
internet to begin with with evidence cited as cannabis making “Black’s think they are as good as
White’s” being used in the initial justification for the law being provided - making this strict
scrutiny as well So the misunderstanding in this case is that the Plaintiff though he had a sure-win case in
this matter - whereas those around them did not seem to see it in this matter.
But the problem and issue is that those around the Plaintiff never provided the Plaintiff
with an opportunity to speak or represent each of these specific points.

R-?
8

Judge Mannion specifically - when this case began - indicated that the constitutionality of
cannabis prohibition was decided in 2001 with some Oakland Cannabis case that did not even
address the same points that the Plaintiff mentioned above - and cited Gonzales v. Raich - a
commerce clause case - to justify their position.
Then they precluded the Plaintiff from raising the issue of constitutionality of the
prohibition of cannabis completely throughout the entire course of the delayed litigation.
WITHOUT - consideration of the new facts and evidence that has emerged including
science and reports and so many developments and advancements - that the Plaintiff risked their
career and livelihood to represent to the court - completely without consideration Gonzales v. Raich (2005) was a Supreme Court Commerce Clause case - and although
the prohibition of cannabis was not found unconstitutional under the commerce clause - it was
specifically remanded for consideration under due process issues - after which the matter was
resolved before it returned to the Supreme Court for Consideration So - aside from the prohibition of cannabis - the level of prejudice demonstrated by Judge
Mannion and the U.S. District Court is unfathomable.
The level of prejudice demonstrated by Judge Mannion / U.S. District Court - are the
same levels of prejudice that have caused millions of people to protest and riot in the most recent
days over the death of George Floyd in Minneapolis.
You crazy - racist - prejudicial - white people - are just nuts. You have a mental illness.
You are racist. And you are twisted. And you have this disease / illness of keeping the status quo
and not listening to reason. You see an African American in Court and you sentence him longer
than a person of your own color. You take away their opportunities for education, investment,

growth, and you use them for their labor for minimum wages. You do this regularly and it is your
history. I thought that America changed with Martin Luther King Jr. and the President Obama,
but I was completely wrong. The fact that the judge wouldnt even give me a chance to speak my
case - in this matter and others - shows how prejudicial and worthless the American system
really is.
God of Abraham and Moses protect me from these wrongdoers.
Bottom line - the representation of cannabis as a dangerous substance with no medicinal
value is fraudulent.
Fraud is a violation of the due process rights of people.
Whether you know it - or not - the Fraud Litigation Manual in Pennsylvania attached here
in indicates that fraud can be performed with reckless disregard of the truth.
I really believe that all judges, lawyers, and politicians know that pot is not dangerous,
and so does every reasonable person, as indicated by the Gallup Poll supporting legalization.
And so I stand by my letter one year ago - that this is fraud - and the continued
representation of this will result in me, Amro Elansari, reporting you to the F.B.I. and
Department of Justice for fraud and the criminal deprivation of rights under color of law.
I don’t know if it will have any effect - because i tried reporting this to the F.B.I. before
as a wrongful deprivation of the rights of people - to no effect - they didn’t even listen.
Cannabis will be legal and records will be expunged anyway - as in other states - and as it
is being discussed here.
But the inequality towards minorities - makes it unconstitutional
The fraudulent representation - reckless disregard of the truth - makes it unconstitutional

G-l*>
10

And if you really believe in your American system - liberty and justice for all - and that
all people are created equal - and that people have a right to be free from fraud and inequality
under the constitution - you will AT LEAST - remand this case for further consideration - if not
just legalize cannabis by declaring its prohibition given current science and knowledge
unconstitutional.
It’s not the perfect brief - and I’m not the perfect lawyer yet - but this is as
straightforward of an argument as it can be - in as efficient of a time as possible. I certainly
wanted to provide this Court with at least some guidance so they can issue their opinion based on
something substantive.
But technically - my original brief is sufficient for victory Cannabis laws disproportionate impact on minorities - unconstitutional
Cannabis legalization as medicine - misrepresentation - unconstitutionality The American People Deserve Better - The American People Deserve Truth
You define America with your decision in this case You defined American with your decisions in the previous matters - they haven’t been
well - and they have resulted in the protests and riots you see before you this very moment.

IHf
11

IV. SUMMARY OF ARGUMENT
The lower court improperly prejudiced the arguments of the Plaintiff erroneously in the
matter pertaining to the constitutionality of cannabis and this matter must be remanded.
The prohibition of cannabis is unconstitutional for more than one reason, including its
fraudulent misrepresentation in various ways as being a substance that is life-taking such as
heroin or crack and very dangerous as well as not medicinal, simultaneously while alcohol and
tobacco which take life are legal - in the rational furtherance of which legitimate government
interest? Public safety? That representation is false and made with such reckless disregard to the
truth to constitute fraud.
The disproportionate impact and racial prejudice associated with the prohibition of
cannabis is also a reason supporting its unconstitutionality.
Plaintiff succeeds against USA and Pennsylvania with regards to their prohibitions of
cannabis Plaintiff was unequally treated by students at Penn State Law - the administration failed
to provide an equal educational environment - Plaintiff protested by violating the one sided
directive issued by the Dean - arguing that it was one-sided - unfair - unlawful - void - etc. While
the law school can paint their story in any way they like - my intent has always been fair and
reasonable protest as well as sorting through in the legal system. And my patience for 5 years +
throughout this process signifies my commitment to the law - this issue - and the rights of others
- as lawyers are truly supposed to be.
It is argued that this case should be remanded - if not fully decided immediately right
here in this instant Court right on the spot to speed matters up.

12

V. ARGUMENT
The Constitution Amendment XIV guarantees that people will not be deprived of life liberty - or property - without the due process of law.
The prohibition of cannabis is a deprivation of life - liberty - and / or property - without
the due process of law.
The Bill of Rights - right to fair trial - due process - counsel - free speech - are all
intended to protect against one of the worst fears of freedom - unjust and unlawful imprisonment.
The Government can put speed limits - limit alcohol sales - regulate commerce - do
whatever it wishes in these contexts - but to place a person under criminal arrest is among one of
the absolute greatest rights there can possibly exist in the American system.
And yet - such an absolute fundamental right - being taken away for pot - cannabis marijuana - is such a frivolous and unreasonable reason to infringe upon such a fundamental
right And while there is justification for crack - cocaine - heroine - certainly the same does not
exist for cannabis. And certainly not while alcohol and tobacco are legal. And certainly not with
the science and information about the medicinal use of cannabis - now used medicinally in 32
states.
Any American seeing such a set of facts should / could / would agree that the taking
away of a person’ s liberty - for pot - something that people have plenty of now that it is legal in
Pennsylvania, New Jersey, and Delaware (medicinally) - certainly has been a mistake.
The Bill of Rights guarantees the right to a fair trial and the right to be heard - so people
do not go to jail by mistake - or unfairly.

B13

But then again - America was founded in life - liberty - and due process - and equality while engaging in slavery - and segregation as recent as the 1950’s - and with racism through
this pot law through this very day The question in this case is what type of America do you want to be from here on. Do
you want to continue with the racism and inequality and reckless disregard of the truth (fraud) or do you want to uphold your oath to the Constitution.
VI. CONCLUSION
Please uphold your oath to the Constitution by at least remanding this case for further
proceedings - reconsideration on the Plaintiffs constitutionality claims as well as the declaration
of the laws prohibiting cannabis and the continuous unlawful deprivation of rights by the
Appellant States, USA and Pennsylvania, through the continued arrest, prosecution, conviction,
incarceration, and criminal record representation for pot - a substance nearly anyone who is
educated knows is not as dangerous as alcohol - tobacco - cocaine - heroin - crack - etc - and
does in fact have medicinal value and use in the US - the representation of otherwise is false /
fraud / violation of due process - and the unequal impact this has had on minorities also makes it
unconstitutional - declaring the Plaintiff correct in their intentions - at the minimum.
I certainly do apologize to the citizens involved on both sides of the matter - to the Court
- the Law School - students involved - officers involved - etc - because I do understand they were
trying their best to uphold law and order from their perspective - and so I do recognize that
nothing is perfect. But we, as an American, can certainly do better. I’m willing to admit my
mistakes and make changes and my patience throughout the 5 years+ of this litigation is
testament to this factually.

B14

REVERSE AND REMAND.
Respectfully Submitted,

Dated: June 3, 2019

Amro Elansari
Liberty And Justice For All

G-lS15

